CERTIFICATE OF COMPLIANCE
Petitioner hereby certifies, by his undersigned signature, that this Petition for
Writ of Certiorari complies with the page limitations, not exceeding 40 pages (merits
brief) and a total word count of 11,002 words as computed by the computer count
pursuant to Rule 33(g)(v) of the Rules of this Court.
CERTIFICATE OF SERVICE
Petitioner hereby certifies, by his undersigned signature, that the original copy
of the foregoing Petition was served upon the Office of the Clerk of the Supreme
Court of the United States whose address is: 1 First Street, N.E., Washington, DC,
20543; and that a copy was sent to the Office of the United States Solicitor General
on this

Ifift day of 4pr' 1

, 2021, by First Class U.S. Mail at the following

address: 950 Pennsylvania Avenue, N.W., Washington, DC, 20530.

Bruce Simmons Pro se
283 S.W. 8th Street
Apt. B
Dania Beach, Florida, 33004

41

